                            OFFICE OF
                     THE INSPECTOR GENERAL

                         U.S. NUCLEAR
                    REGULATORY COMMISSION



                        Government Performance and
                                 Results Act:
                        Review of the Fiscal Year 1999
                             Performance Report

                      OIG-01-A-03     February 23, 2001




                     AUDIT REPORT




All publicly available OIG reports (including this report) are accessible through
                              NRC’s website at:
                   http://www.nrc.gov/NRC/OIG/index.html
MEMORANDUM TO:               William D. Travers
                             Executive Director for Operations

                             Jesse L. Funches
                             Chief Financial Officer



FROM:                        Stephen D. Dingbaum/RA/
                             Assistant Inspector General for Audits


SUBJECT:                     GOVERNMENT PERFORMANCE AND RESULTS ACT: REVIEW
                             OF THE FY 1999 PERFORMANCE REPORT (OIG-01-A-03)


Attached is the Office of the Inspector General’s audit report titled, Government Performance
and Results Act: Review of the Fiscal Year 1999 Performance Report. The report incorporates
comments provided by your offices during the exit conference, as appropriate. Formal agency
comments have been included in their entirety as Appendix II. Appendix III explains why these
comments were not incorporated in the report.

This report responds to a congressional request to review the Nuclear Regulatory
Commission’s FY 1999 performance report and determine the validity and reliability of the data
used to report the agency’s performance. The review concluded that at least 13 of 29
safety-related performance measures and results reported were either invalid or unreliable. In
addition, the performance report did not adequately describe why NRC failed to meet one
performance goal. This report makes three recommendations.

If you have any questions, please call me at 415-5915.


Attachment: As stated

cc: John Craig, OEDO
cc:   R. McOsker, OCM/RAM
      B. Torres, ACMUI
      B. Garrick, ACNW
      D. Powers, ACRS
      J. Larkins, ACRS/ACNW
      P. Bollwerk III, ASLBP
      K. Cyr, OGC
      J. Cordes, Acting OCAA
      S. Reiter, Acting CIO
      P. Rabideau, Deputy CFO
      J. Dunn Lee, OIP
      D. Rathbun, OCA
      W. Beecher, OPA
      A. Vietti-Cook, SECY
      F. Miraglia, DEDR/OEDO
      C. Paperiello, DEDMRS/OEDO
      P. Norry, DEDM/OEDO
      J. Craig, AO/OEDO
      M. Springer, ADM
      R. Borchardt, OE
      G. Caputo, OI
      P. Bird, HR
      I. Little, SBCR
      W. Kane, NMSS
      S. Collins, NRR
      A. Thadani, RES
      P. Lohaus, OSP
      F. Congel, IRO
      H. Miller, RI
      L. Reyes, RII
      J. Dyer, RIII
      E. Merschoff, RIV
      OPA-RI
      OPA-RII
      OPA-RIII
      OPA-RIV
                   Government Performance and Results Act: Review of the Fiscal Year 1999 Performance Report


EXECUTIVE SUMMARY


Purpose

       This audit was conducted at the request of the Chairman of the Senate Committee on
       Governmental Affairs. The objectives of the audit were to determine (1) if the Nuclear
       Regulatory Commission’s (NRC) fiscal year (FY) 1999 performance data was valid and
       reliable, and (2) if NRC’s FY 2000 performance data will be more valid and reliable.


Background

       The Government Performance and Results Act requires agencies to prepare three
       interrelated documents: a long-term strategic plan, an annual performance plan, and an
       annual performance report. In March 2000, NRC published its performance report for
       FY 1999 which contained the results of 29 safety-related performance measures. This
       audit evaluated the performance data in the FY 1999 performance report.


Results in Brief

       At least 13 of 29 safety-related performance measures and results reported in the
       FY 1999 performance report were either invalid or unreliable. In addition, the
       performance report did not adequately describe why NRC failed to meet one
       performance goal. These problems were caused by inadequate management controls
       for ensuring the validity and reliability of the performance measures. Specifically, NRC
       lacked formal procedures or policies for addressing data collection, reporting results,
       and assigning staff responsibilities. While NRC is taking action to correct many of the
       deficiencies, some of the improvements to strengthen reliability will not be in place until
       after FY 2000. Consequently, the FY 2000 performance report will also have reliability
       problems.


Recommendations

       The Office of the Inspector General recommends that the Chief Financial Officer
       develop the management control procedures needed to produce valid and reliable data,
       implement these management controls immediately in interim policy guidance, and
       institutionalize the controls in a Management Directive.




                                                     1
           Government Performance and Results Act: Review of the Fiscal Year 1999 Performance Report


TABLE OF CONTENTS


        EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

        PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

        BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

        FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

                  FY 1999 Performance Measures Were Not Valid or Reliable . . . . . . . . 4

                  One Unmet Performance Measure Was Not Adequately Reported . . . . 8

        CONSOLIDATED LIST OF RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . 10

        OIG COMMENTS ON AGENCY RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . 10


        APPENDICES

                  I          SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . 11

                  II         AGENCY RESPONSE TO DRAFT REPORT . . . . . . . . . . . . . . 12

                  III        OIG ANALYSIS OF AGENCY COMMENTS . . . . . . . . . . . . . . 15

                  IV         LETTER FROM SENATOR THOMPSON . . . . . . . . . . . . . . . . 18

                  V          OIG RESPONSE TO SENATOR THOMPSON’S LETTER . . . 20

                  VI         ABBREVIATIONS AND ACRONYMS . . . . . . . . . . . . . . . . . . . 27
             Government Performance and Results Act: Review of the Fiscal Year 1999 Performance Report


PURPOSE


   On May 10, 2000, Senator Fred Thompson, Chairman of the Committee on
   Governmental Affairs, requested that the Nuclear Regulatory Commission’s (NRC)
   Inspector General analyze NRC’s fiscal year (FY) 1999 performance report. NRC
   prepared the performance report to comply with the requirements of the Government
   Performance and Results Act (GPRA). On June 27, 2000, the Office of the Inspector
   General (OIG) partially responded to Senator Thompson’s request (see Appendix V). In
   its response, OIG communicated that it would continue to review the data and provide
   additional information on the validity and reliability of performance report data at a later
   date. This report provides that additional information.

   The objectives of this review were to determine (1) if NRC’s FY 1999 performance data
   was valid and reliable, and (2) if NRC’s FY 2000 performance data will be more valid
   and reliable. OIG also evaluated any unmet goals reported in the performance report.
   A detailed discussion of the scope and methodology is located in Appendix I.


BACKGROUND

   Some of the major objectives of GPRA are to: (1) improve the confidence of the
   American people in the capability of the Federal Government; (2) initiate program
   performance reform by setting program goals, measuring program performance against
   those goals, and reporting publicly on their progress; (3) improve congressional
   decision-making by providing information on achieving agency objectives; and (4)
   improve the internal management of the Federal Government.

   To accomplish these objectives, GPRA requires agencies to prepare three interrelated
   documents that establish the framework for measuring performance. These are a
   strategic plan, which is to be updated every 3 years; an annual performance plan; and
   an annual performance report. Office of Management and Budget (OMB) Circular
   A-11, Part 2, Preparation and Submission of Strategic Plans and Annual Performance
   Plans, provides implementing guidance for these GPRA documents.

   GPRA requires that an agency’s annual performance plan contain: (1) performance
   goals to define each program activity’s expected performance level; (2) performance
   indicators to measure or assess the relevant outputs; (3) a basis for comparing program
   results with established goals; and (4) a description of the agency’s verification and
   validation process. NRC issued its first performance plan in February 1998.(1) Since




   1
          Government Performance and Results Act: Performance Plan: Fiscal Year 1999, NUREG-1627,
          Vol. 1, issued February 1998.

                                               3
             Government Performance and Results Act: Review of the Fiscal Year 1999 Performance Report

    that time, the agency has published revised performance plans as part of its annual
    budget submissions(2) to Congress.

    In March 2000, NRC published its performance report for FY 1999.(3) This report
    describes the level to which NRC’s performance met the targets for its 29 safety-related
    performance goals in four strategic arenas as defined in its FY 2000 performance plan.
    The strategic arenas are listed in Table I on page 5.

    NRC offices under the Executive Director for Operations (EDO)(4) have the primary
    responsibility for achieving NRC’s safety-related performance goals. However, the
    Office of the Chief Financial Officer (OCFO) is responsible for coordinating and
    preparing NRC’s strategic plan, annual performance plan, and annual performance
    report.



FINDINGS

    Although NRC is improving and strengthening its performance reporting process, at
    least 13 of 29 measures and results reported in the FY 1999 performance report lacked
    validity or reliability. Further, the FY 1999 performance report did not adequately
    describe why NRC failed to meet one performance goal. These problems were caused
    by inadequate management controls for ensuring the validity and reliability of the
    performance measures. Because some of NRC’s process improvements to strengthen
    reliability will not be in place until after FY 2000, the FY 2000 performance report will
    continue to have reliability problems.

    FY 1999 PERFORMANCE MEASURES WERE NOT VALID OR RELIABLE

    At least 13 of the 29 performance measures and results in NRC’s FY 1999 performance
    report were not valid or reliable. Inadequate management controls for planning,
    coordinating, and communicating GPRA objectives and processes caused the validity
    and reliability problems. Without valid and reliable information, NRC cannot effectively
    evaluate its own performance for making program decisions and revisions. Additionally,



    2
           Budget Estimates and Performance Plan: Fiscal Year 2000, and FY 2001, NUREG-1100, Vols. 15
           and 16, dated February 1999 and 2000, respectively.
    3
           NRC’s Accountability and Performance Report: Fiscal Year 1999, NUREG-1542, Vol. 5,
           March 2000. (For fiscal years 1997 and 1998, NRC included earlier versions of a performance
           report in its Accountability Report, NUREG-1542, Vols. 3 and 4, March 1998 and 1999,
           respectively. At the time, GPRA did not require agencies to prepare a performance report.)
    4
           Throughout this report, the following three offices, the Offices of Nuclear Reactor Regulation,
           Nuclear Material Safety and Safeguards, and Nuclear Regulatory Research, are referred to as the
           “program offices.” Because these offices report to the EDO, they are not under the authority of the
           Chief Financial Officer.

                                                  4
             Government Performance and Results Act: Review of the Fiscal Year 1999 Performance Report

the Congress and the public cannot assess how NRC fulfills its mandate to protect
public health and safety, or whether the agency is a prudent steward of public funds.

Validation, as defined by the General Accounting Office (GAO),(5) is the assessment of
whether the data is appropriate for the performance measure, performance targets
[metrics] are appropriate for the stated measure, and each measure supports its
strategic goal. Reliability is the quality of data, i.e., that the information is complete,
accurate, consistently collected, and verifiable. Using valid and reliable data ensures
that it will be of sufficient quality to document performance and support decision-making.

Validity

At least 13 of NRC’s 29 FY 1999 performance measures and results were not valid as
can be seen in Table I. For six measures, the agency used a 5-year average with no
baseline to gauge an increase or decrease in performance. Three other measures were
not valid because NRC had no reasonable method or process to gather the data from
which to draw conclusions about performance. Other measures had either incomplete
metrics to measure achievement, were completely missing one metric, or were
misaligned with their strategic arena.

                      TABLE I — SUMMARY OF INVALID MEASURES

                                                      Total Number of
                                                       Performance              Number of
                Strategic Arenas                         Measures             Measures Invalid

    Nuclear Reactor Safety                                     8                       2

    Nuclear Materials Safety                                  14                       6

    Nuclear Waste Safety                                       6                       4

    International Nuclear Safety Support                       1                       1

                                        TOTAL                 29                      13

Recent revisions to NRC’s strategic plan corrected the validity issues identified with the
FY 1999 performance measures. For example, NRC has changed the measures that
used a 5-year average. Likewise, NRC eliminated the performance measures for which
it could not gather reliable data. Because these revisions will be effective for the
FY 2000 performance report, these validity issues will be resolved.


Reliability



5
          Performance Plans: Selected Approaches for Verification and Validation of Agency Performance
          Information, GAO/GGD-99-139, July 1999.

                                               5
             Government Performance and Results Act: Review of the Fiscal Year 1999 Performance Report

Many of NRC’s FY 1999 performance measures and results were not reliable.
Reliability was undermined by (1) incomplete data, (2) inconsistent data interpretation,
and (3) inadequate data collection processes. More than half of the performance
measures for FY 1999 relied on events reported in NRC’s annual Report to Congress on
Abnormal Occurrences(6) as can be seen in the following table.

                    TABLE II — SUMMARY OF MEASURES RELYING ON
                           ABNORMAL OCCURRENCE REPORT

                                                       Total Number of               Measures
                                                        Performance               from Abnormal
               Strategic Arenas                           Measures                 Occurrences

    Nuclear Reactor Safety                                      8                          5

    Nuclear Materials Safety                                   14                         10

    Nuclear Waste Safety                                        6                          0

    International Nuclear Safety Support                        1                          0

                                        TOTAL                  29                         15

Abnormal occurrence data is generated from NRC and Agreement State licensees.(7)
However, Agreement States do not always submit their reports as expected and there
are significant reporting variations among the Agreement States. For example, some
States submit their reports on a monthly basis, while others submit on a quarterly or
even less frequent basis. Recently, one large State submitted its event reports from
1998. As a result, NRC has no assurance the reported data for these performance




6
          Report to Congress on Abnormal Occurrences: Fiscal Year 1999, NUREG-0090, Vol. 22,
          February 2000. Section 208 of the Energy Reorganization Act of 1974 (Public Law 93-438)
          identifies an abnormal occurrence as an unscheduled incident or event that the NRC determines
          to be significant from the standpoint of public health or safety. Abnormal occurrence reporting is
          not intended to be used for the same purpose as the performance report, i.e., to measure NRC’s
          performance during a specific time frame. Instead, abnormal occurrences are reported to
          Congress in the year they are identified by NRC, which may or may not be the same as the year in
          which the event occurred.
7
          The Atomic Energy Act of 1954, as amended (Public Law 83-703), allows NRC to relinquish its
          regulatory authority to the States for specific materials. Because States enter into an agreement
          with the Commission, they are referred to as “Agreement States.” During 1999, there were 31
          Agreement States regulating approximately 15,500 materials licenses. NRC regulates
          approximately 5,200 materials licenses.

                                                  6
          Government Performance and Results Act: Review of the Fiscal Year 1999 Performance Report

measures is complete, and cannot fully assess the effectiveness of the agency’s
program or the management of the program.(8) NRC is currently developing solutions to
identify and resolve Agreement State reporting issues and does not expect to have a
solution in place before March 2001.

Subjective and inconsistent event interpretation also contributed to unreliable data. For
example, during FY 1999, fetal exposures that occurred during medical procedures
conducted on the mother were counted as either “medical misadministrations” or
“exposures.” In such events, the mother received the appropriate exposure dosage, but
the fetus also received a dose unintentionally.(9) For the FY 1999 abnormal occurrence
report, the unintended fetal exposures were classified as exposures, rather than medical
misadministrations. However, for the performance report, depending on the office
interpreting the event, fetal exposures were classified inconsistently as either exposures
or medical misadministrations. And preliminary performance results changed with each
new interpretation. Although all fetal events, regardless of the dose received, eventually
were reported consistent with the abnormal occurrence report, this lack of classifying
criteria demonstrates how other event-based measures could be inconsistently
interpreted.

No effective method for collecting data was in place to report NRC’s performance for
three measures in FY 1999. These three measures, one in each strategic arena
(reactors, materials, waste), had the same or similar goal: “Environmental impacts are
considered through the National Environmental Policy Act (NEPA) process before
regulatory action is taken.” The target for this goal was, “Zero environmental impacts
identified and substantiated each year by external sources which were not identified as
part of NRC’s NEPA process.” These measures relied solely on external parties to
monitor and identify when NRC did not comply with its internal processes. However,
there was no way for an external party to determine when NRC did not comply. These
three measures have been eliminated and replaced with new measures in the agency’s
updated strategic plan.

Inadequate Management Controls Affected Validity and Reliability

Inadequate management controls both at the program office and coordinating office
(OCFO) levels contributed to the validity and reliability problems with NRC’s
performance data. Management controls include the methods and procedures that
management adopts to meet its objectives. The FY 1999 performance reporting
process lacked formal procedures or policies for addressing data collection, reporting

8
       The abnormal occurrence report is not similarly affected because the events it describes are not
       limited to a specific time frame.
9
       Title 10 of the Code of Federal Regulations Part 35, Medical Use of Byproduct Material, defines
       medical misadministration as “the administration of: (1) A radiopharmaceutical dosage greater
       than 30 microcuries of either sodium iodine I-125 or I-131: (i) involving the wrong individual, or
       wrong radiopharmaceutical....” Until recently, NRC did not require reporting of unintentional fetal
       exposures in a medical setting. With the issuance of the revised Part 35 rule, this situation will be
       addressed.

                                                7
                Government Performance and Results Act: Review of the Fiscal Year 1999 Performance Report

     results, or assigning staff responsibilities. The OCFO’s initial call for FY 1999
     performance results went unanswered until the Office of the Executive Director for
     Operations made a second call for the data. At that time, individual staff and office
     responsibilities were not defined. This led to confusion between offices over who was
     responsible for submission of the data. Although most of the performance measure
     results were provided by the Office of Nuclear Regulatory Research, the measures
     primarily reflect activities of either the Office of Nuclear Material Safety and Safeguards
     (NMSS) or the Office of Nuclear Reactor Regulation. During FY 2000, the agency
     began addressing this issue by assigning responsibility to offices and individuals for
     specific performance measures.

     Despite improvements, inadequate management controls will have consequences for
     the FY 2000 reporting cycle. At a December 2000 NRC financial managers meeting
     (over 2 months after the reporting period closed), NRC’s program offices were unclear
     about the specific measures for which they were to provide performance data. NRC
     offices generally expected to report their performance based on the measures in the
     FY 2000 performance plan. However, OCFO intends to use the FY 2001 performance
     plan as the framework for reporting FY 2000 results. This shift in reporting criteria may
     not allow offices adequate time to collect and verify their data.

Conclusions

     At least 13 of 29 FY 1999 performance measures and results were either invalid or
     unreliable. Although NRC continually strives to improve its process, the agency faces a
     significant challenge to improve the validity and reliability of its performance data.
     Improved management controls in the form of better planning, communication, and
     coordination would enhance the integrity of NRC’s performance data. Many planned
     improvements, however, will not be in place until after FY 2000.

Recommendations

     OIG recommends that the Chief Financial Officer:

     1.       Develop an NRC Management Directive to provide the management controls
              needed to ensure that NRC produces credible GPRA documents.

     2.       Issue and implement formal interim policy guidance immediately to be used
              during the development of the Management Directive.



     ONE UNMET PERFORMANCE MEASURE WAS NOT ADEQUATELY REPORTED

     NRC did not adequately report on one of its unmet FY 1999 performance measures.
     The agency improperly used a generic explanation when a full explanation was required
     by OMB’s implementing guidance. Without adequate information, the Congress and
     other interested parties cannot evaluate the impact of NRC’s inability to meet this goal.

                                                  8
               Government Performance and Results Act: Review of the Fiscal Year 1999 Performance Report



     GPRA requires the performance report to explain the circumstances behind an unmet
     goal. The explanation is to state (1) why the goal was not met, (2) the plans and
     schedules for achieving the established performance goal, and (3) if the performance
     goal is impractical or infeasible, why that is the case and what action is recommended.
     According to OMB Circular A-11's guidance on unmet goals, an explanation may vary
     depending on the difference between the target and the reported result. If the
     difference is ‘slight,’ the agency may use a generic explanation. However, such
     explanation cannot be used if the agency changes the target, or takes other action to
     assure that future target levels will be achieved.

     In the Nuclear Materials Safety strategic arena, the second goal was not met. This goal
     states, “No increase in the number of significant radiation exposures resulting from loss
     or use of source, byproduct, and special nuclear materials.” The target for this goal was
     a combined 5-year average of exposure events not to exceed 2 per year. The agency
     reported an average of 2.2.(10) Using a generic explanation, NRC’s FY 1999
     performance report stated, “The performance goal established an approximate metric,
     and the deviation from that level is slight. There was no effect on overall program or
     activity performance.”

     NRC’s use of the generic explanation was inappropriate because NMSS concluded in
     internal documents that the target needed reevaluation and was, in fact, revising the
     target. Using a generic explanation in this instance was inconsistent with the OMB
     guidance. The lack of adequate management controls, in particular, inadequate
     reporting policies and procedures, caused this reporting deficiency.

Conclusion

     Performance results are intended to provide NRC, the Congress, and the public with a
     report card on the agency’s performance. When sufficient information is missing, no
     party can assess the significance of an unmet goal and determine whether or what
     corrective action is needed. As with validity and reliability, OCFO and the other offices
     must work together to ensure that all parties to the GPRA process receive adequate
     NRC performance information.

Recommendation

     OIG recommends that the Chief Financial Officer:

     3.      Include guidance on reporting unmet goals in both the Management Directive
             and the interim policy guidance on implementing GPRA initiatives.




     10
             This measure was also discussed earlier on page 7 of this report.

                                                    9
                Government Performance and Results Act: Review of the Fiscal Year 1999 Performance Report


CONSOLIDATED LIST OF RECOMMENDATIONS

       OIG recommends that the Chief Financial Officer:

       1.     Develop an NRC Management Directive to provide the management controls
              needed to ensure that NRC produces credible GPRA documents.

       2.     Issue and implement formal interim policy guidance immediately to be used
              during the development of the Management Directive.

       3.     Include guidance on reporting unmet goals in both the Management Directive
              and the interim policy guidance on implementing GPRA initiatives.




OIG COMMENTS ON AGENCY RESPONSE

At the exit conference on January 12, 2001, the agency agreed with our recommendations and
agreed to take corrective action. Following the conference, on February 13, 2001, the agency
also provided formal comments (see Appendix II) addressing specific statements in the draft
report. We considered these comments and determined that the information presented in the
report was reasonable and accurate. Therefore, we have not changed the report.

OIG’s analysis to each agency comment has been provided in Appendix III.




                                                 10
                                                                                            Appendix I
             Government Performance and Results Act: Review of the Fiscal Year 1999 Performance Report


SCOPE AND METHODOLOGY

    The objectives of this audit were to determine if the U.S. Nuclear Regulatory
    Commission’s (NRC) fiscal year (FY) 1999 performance data is valid and reliable, and if
    NRC’s FY 2000 performance data will be more valid and reliable.

    To accomplish these objectives, the Office of the Inspector General (OIG) (1) reviewed
    the Government Performance and Results Act of 1993, related guidance issued by the
    Office of Management and Budget and relevant Government Accounting Office reports,
    and internal NRC documents; (2) analyzed and evaluated data supporting the agency’s
    FY 1999 performance report; (3) interviewed officials and staff from the Offices of the
    Chief Financial Officer, Nuclear Reactor Regulation, Nuclear Material Safety and
    Safeguards, Nuclear Regulatory Research, State and Tribal Programs, and International
    Programs; and (4) analyzed all 29 of the FY 1999 performance measures for validity
    and selected Nuclear Materials Safety measures from the abnormal occurrence
    reporting process for reliability. The abnormal occurrence reporting process was
    reviewed for its ability to produce reliable performance measure data and not to
    determine the reliability of the abnormal occurrence report itself.

    OIG performed this audit in accordance with generally accepted government audit
    standards and included a review of management controls related to the objectives of
    this audit. The audit was conducted from June through October 2000.

    The major contributors to this report were Anthony Lipuma, Team Leader; Camilla
    Barror, Senior Auditor; and Debra Lipkey, Management Analyst.




AGENCY RESPONSE TO DRAFT REPORT

                                              11
                                                                               Appendix II
Government Performance and Results Act: Review of the Fiscal Year 1999 Performance Report




                                 12
                                                                                                Appendix II
                 Government Performance and Results Act: Review of the Fiscal Year 1999 Performance Report

The Nuclear Regulatory Commission has concerns with several statements which appear in the
Inspector General’s draft Government Performance and Results Act: Review of the Fiscal Year
1999 Performance Report (OIG-01-A-03). These concerns are presented below:

1.    On page 6 the report states that “... Congress and the public cannot assess how
NRC fulfills its mandate to protect public health and safety, or whether the agency is a
prudent steward of public funds.”

Response: The NRC believes that this sentence is an overstatement. The NRC also believes
that Congress has several means available to assess how NRC fulfills its mandate to protect
public health and safety, and whether the agency is a prudent steward of public funds. The
NRC conducts most of its business in a public forum, presents testimony to Congress as
required, and publishes a wide variety of material that can be used to assess the degree to
which the Agency fulfills its mandate to protect public health and safety and whether the agency
is a prudent steward of public funds. The 1999 Performance Report showed the progress the
NRC had made at the time the report was published developing and implementing a
performance-based management system. Whatever inadequacies there may be in collecting
data for the FY 1999 Accountability and Performance Report, the NRC’s fundamental programs
remain in place and continue to ensure the safe use of byproduct, source and special nuclear
materials. We suggest that this statement be removed from the report.

2.      On page 9 and 10 the report discusses problems that it claims result from using
abnormal occurrence data. The report listed the unreliable measures in a table (Table 2:
Unreliable Measures) which accompanies the draft report. The report implies that all
measures which rely on abnormal reporting data may be unreliable, in part as a result of
their reliance on Agreement State data.

Response: Not all abnormal occurrence data rely on data supplied by the Agreement States.
Only 5 of the 15 measures identified in Table 2 rely on Agreement State data. For example, the
first 5 measures rely on data collected by the NRC’s Office of Nuclear Reactor Regulation
(NRR), not Agreement States. Only the following measures rely on data supplied by the
Agreement States: (1) No. 7 “Zero radiation-related deaths resulting from civilian use of source,
byproduct, and special nuclear materials,” (2) No.8 “No increase in the number of significant
radiation exposures resulting from loss or use of source, byproduct, and special nuclear
materials,” (3) No. 9 “No increase in the number of losses of licensed material as reported to
Congress annually,” (4) No. 11 “No increases in the number of misadministration events which
cause significant radiation exposures,” and (5) No. 13 “No significant accidental releases of
radioactive material from the storage or transportation of nuclear material or nuclear waste”.
We suggest that the number of measures which are considered to be potentially unreliable be
reduced to 5.

                                                                         Attachment
3.    On page 11 the report states “Although most of the performance measure results
were provided by the Office of Nuclear Regulatory Research, the measures primarily



                                                  13
                                                                                                Appendix II
                 Government Performance and Results Act: Review of the Fiscal Year 1999 Performance Report

reflect activities of either the Office of Nuclear Material Safety and Safeguards (NMSS) or
the Office of Nuclear Reactor Regulation.”

Response: We suggest that the statement in the draft report be replaced with the following
statement. “Although most of the measures primarily reflect activities of either the NMSS or the
NRR, the Office of Nuclear Regulatory Research reported results duplicating many provided by
NMSS.”

4.      On page 12 the report states that “NRC offices generally expected to report their
performance based on the measures in the FY 2000 performance plan. However, OCFO
intends to use the FY 2001 performance plan as a framework for reporting FY 2000
results. This shift in reporting criteria may not allow offices adequate time to collect and
verify data.”

Response: The statement makes it appear that as a result of a last minute shift in the
performance measures, the program offices would not be prepared to report performance data
for the FY 2000 Accountability and Performance Report. The safety performance indicators
reported within the FY 2000 Accountability and Performance Report are based on the NRC’s
FY 2000-2005 Strategic Plan that set the framework for the development of the performance
indicators. The safety strategic goal measures were originally established in the NRC’s
FY 2000 Budget Estimates and Performance Plan, published in February 1999, and were
subsequently modified in the FY 2001 Budget Estimates and Performance Plan. The offices
themselves played an important part in developing the modified FY 2000 measures. The data
collected by the offices was applicable to both the FY 2000 or the FY 2001 performance
measures. Thus, the ability to collect and verify data was not impacted. We are not aware of
any offices which have had difficulty collecting and verifying their data for the FY 2000
Accountability and Performance Report. We suggest these statements be removed from the
report.




                                                                                             Attachment

OIG ANALYSIS OF AGENCY COMMENTS




                                                  14
                                                                                               Appendix III
                 Government Performance and Results Act: Review of the Fiscal Year 1999 Performance Report

The Office of the Inspector General (OIG) has analyzed each of the Nuclear Regulatory
Commission’s (NRC) four comments provided in responding to the draft report (see
Appendix II) as follows:

Agency Comment No. 1:

       On page 6 [page 5 in the final report] the report states that “... Congress and the public
       cannot assess how NRC fulfills its mandate to protect public health and safety, or
       whether the agency is a prudent steward of public funds.”

       Response: The NRC believes that this sentence is an overstatement. The NRC also
       believes that Congress has several means available to assess how NRC fulfills its
       mandate to protect public health and safety, and whether the agency is a prudent
       steward of public funds. The NRC conducts most of its business in a public forum,
       presents testimony to Congress as required, and publishes a wide variety of material
       that can be used to assess the degree to which the agency fulfills its mandate to protect
       public health and safety and whether the agency is a prudent steward of public funds.
       The 1999 Performance Report showed the progress the NRC had made at the time the
       report was published developing and implementing a performance-based management
       system. Whatever inadequacies there may be in collecting data for the FY 1999
       Accountability and Performance Report, the NRC’s fundamental programs remain in
       place and continue to ensure the safe use of byproduct, source and special nuclear
       materials. We suggest that this statement be removed from the report.

       OIG Response to Comment No. 1:

       The issues we noted regarding the validity and reliability of NRC’s performance
       information are directly related to the Government Performance and Results Act (GPRA)
       objectives. One of these objectives is to “improve congressional decision-making by
       providing more objective information on achieving statutory objectives, and on the
       relative effectiveness and efficiency of Federal programs and spending.” Our report
       reflects NRC’s challenge (under the auspices of GPRA) to provide this objective
       information. The report remains as stated in the draft.


Agency Comment No. 2:

       On page 9 and 10 [pages 6 and 7 in the final report] the report discusses problems that
       it claims result from using abnormal occurrence data. The report listed the unreliable
       measures in a table (Table 2: Unreliable Measures) which accompanies the draft report.
        The report implies that all measures which rely on abnormal reporting data may be
       unreliable, in part as a result of their reliance on Agreement State data.
       Response: Not all abnormal occurrence data rely on data supplied by the Agreement
       States. Only 5 of the 15 measures identified in Table 2 rely on Agreement State data.
       For example, the first 5 measures rely on data collected by the NRC’s Office of Nuclear


                                                  15
                                                                                             Appendix III
               Government Performance and Results Act: Review of the Fiscal Year 1999 Performance Report

     Reactor Regulation (NRR), not Agreement States. Only the following measures rely on
     data supplied by the Agreement States: (1) No. 7 “Zero radiation-related deaths
     resulting from civilian use of source, byproduct, and special nuclear materials,” (2) No. 8
     “No increase in the number of significant radiation exposures resulting from loss or use
     of source, byproduct, and special nuclear materials,” (3) No. 9 “No increase in the
     number of losses of licensed material as reported to Congress annually,” (4) No. 11 “No
     increases in the number of misadministration events which cause significant radiation
     exposures,” and (5) No. 13 “No significant accidental releases of radioactive material
     from the storage or transportation of nuclear material or nuclear waste”. We suggest
     that the number of measures which are considered to be potentially unreliable be
     reduced to 5.

     OIG Response to Comment No. 2:

     Table II in the draft report (page 6 of the final report) shows 15 measures derived from
     the abnormal occurrence reporting process. The report does not specify the number of
     Agreement State reporting measures. Instead, the draft report states that data supplied
     by Agreement States affects some performance measures. The finding remains as
     stated in the draft.


Agency Comment No. 3:

     On page 11 [page 8 in the final report] the report states “Although most of the
     performance measure results were provided by the Office of Nuclear Regulatory
     Research, the measures primarily reflect activities of either the Office of Nuclear
     Material Safety and Safeguards (NMSS) or the Office of Nuclear Reactor Regulation.”

     Response: We suggest that the statement in the draft report be replaced with the
     following statement. “Although most of the measures primarily reflect activities of either
     the NMSS or the NRR, the Office of Nuclear Regulatory Research reported results
     duplicating many provided by NMSS.”

     OIG Response to Comment No. 3:

     Our audit work supports that the sentence is correct as stated. Most of the data used to
     report the performance measure results originated from the Office of Nuclear
     Regulatory Research (RES). In fact, for one measure, the Office of Nuclear Material
     Safety and Safeguards provided data that conflicted with RES, and the final numbers
     used in the performance report where based on those numbers provided by RES. The
     sentence remains as stated in the draft.


Agency Comment No. 4:



                                                16
                                                                                       Appendix III
         Government Performance and Results Act: Review of the Fiscal Year 1999 Performance Report

On page 12 [page 8 in the final report] the report states that “NRC offices generally
expected to report their performance based on the measures in the FY 2000
performance plan. However, OCFO intends to use the FY 2001 performance plan as a
framework for reporting FY 2000 results. This shift in reporting criteria may not allow
offices adequate time to collect and verify data.”

Response: The statement makes it appear that as a result of a last minute shift in the
performance measures, the program offices would not be prepared to report
performance data for the FY 2000 Accountability and Performance Report. The safety
performance indicators reported within the FY 2000 Accountability and Performance
Report are based on the NRC’s FY 2000-2005 Strategic Plan that set the framework for
the development of the performance indicators. The safety strategic goal measures
were originally established in the NRC’s FY 2000 Budget Estimates and Performance
Plan, published in February 1999, and were subsequently modified in the FY 2001
Budget Estimates and Performance Plan. The offices themselves played an important
part in developing the modified FY 2000 measures. The data collected by the offices
was applicable to both the FY 2000 or the FY 2001 performance measures. Thus, the
ability to collect and verify data was not impacted. We are not aware of any offices
which have had difficulty collecting and verifying their data for the FY 2000
Accountability and Performance Report. We suggest these statements be removed
from the report.

OIG Response to Comment No. 4:

At NRC’s December 2000 financial managers meeting, there was confusion about which
measures would be used for reporting. During that meeting, OCFO staff provided
conflicting information about which performance measures would be the basis for
reporting the FY 2000 performance results. In addition, internal documents and
interviews with agency staff indicated that some offices were not prepared to report on
the revised measures issued in the FY 2001 performance plan. The sentence remains
as stated in the draft.




                                          17
                                                                                       Appendix IV
         Government Performance and Results Act: Review of the Fiscal Year 1999 Performance Report


LETTER FROM SENATOR THOMPSON




                                          18
                                                                              Appendix IV
Government Performance and Results Act: Review of the Fiscal Year 1999 Performance Report




                                 19
                                                                                                Appendix V
                 Government Performance and Results Act: Review of the Fiscal Year 1999 Performance Report


OIG RESPONSE TO SENATOR THOMPSON’S LETTER

                                           June 27, 2000


The Honorable Fred Thompson, Chairman
Committee on Governmental Affairs
United States Senate
Washington, D.C. 20510-6250

Dear Mr. Chairman:

Enclosed is our response to your May 10, 2000, letter requesting information on the Nuclear
Regulatory Commission’s annual performance report for FY 1999. Currently, we are
conducting a detailed review of the agency’s performance measures to assess the reliability of
the data used in its report. This review will address part of your request. Once the review is
completed, we will share the results with you.

If you have any questions about either our enclosure or about our current review, please call
me at (301) 415-5930, or call Stephen Dingbaum, Assistant Inspector General for Audits, at
(301) 415-5915.

                                               Sincerely,

                                               Hubert T. Bell \RA\
                                               Inspector General

Enclosure: As stated

cc:    Chairman Meserve
       Commissioner Dicus
       Commissioner Diaz
       Commissioner McGaffigan
       Commissioner Merrifield
       W. D. Travers, EDO
       J. L. Funches, CFO
       S. Reiter, Acting CIO




                                                  20
                                                                                                Appendix V
                 Government Performance and Results Act: Review of the Fiscal Year 1999 Performance Report

The following are the answers to questions from the May 10, 2000, letter to NRC’s Inspector
General.

1.     What performance goals and measures from the agency’s FY 1999 performance
       plan relate directly to each of the management challenges?

       When we identified the management challenges for the Nuclear Regulatory Commission
       (NRC), they were identified for purposes outside of the Government Performance and
       Results Act framework. Therefore, we did not expect that these management
       challenges would correlate exactly with the agency’s strategic plan, performance plan,
       or performance report. Second, the Office of Management and Budget Circular A-11
       does not address relating performance goals and measures with management
       challenges.

       NRC, however, addressed some management challenges in its performance plan.
       Below, I am sharing observations on how the agency addressed the management
       challenges in its performance plan and how NRC has proposed to address them in the
       strategic plan currently being developed.

       Performance Plan and Performance Report
       In the agency’s performance plan,(1) there were no goals or measures that related
       directly to the management challenges. The agency did not explicitly address the
       management challenges in either its performance plan, or its performance report.(2)

       Several management challenges were indirectly addressed in the performance plan as
       “strategies.” At the end of each strategic arena(3) section of the performance plan, the
       agency listed strategies the NRC intends to utilize to ensure that the agency achieves
       each of its strategic goals. In addition, some management challenges were included as
       output measures. Attachment I contains a list of how the agency addressed each
       management challenge in its performance plan.

       Draft FY 2000 - FY 2005 Strategic Plan
       We would like to note that although neither the performance plan nor the performance
       report explicitly addressed the management challenges, the revised draft FY 2000 - FY
       2005 Strategic Plan(4) contains a small proposed section devoted to the management
       challenges. This section notes that “Various sections of this [strategic] plan substantially


       1
              Budget Estimates and Performance Plan: Fiscal Year 2000, Feb. 1999, NUREG 1100, Vol. 15.
       2
              Accountability and Performance Report: Fiscal Year 2000, March 2000, NUREG 1542, Vol 5.
       3
              NRC’s four strategic arenas are: (1) Nuclear Reactor Safety, (2) Nuclear Materials Safety,
              (3) Nuclear Waste Safety, and (4) International Nuclear Safety Support.
       4
              The final FY 2000 - FY 2005 Strategic Plan is planned to be issued by September 30, 2000.


                                                     21
                                                                                              Appendix V
               Government Performance and Results Act: Review of the Fiscal Year 1999 Performance Report

     cover the management challenges identified by the OIG and provide the actions
     underway or planned that would address them.”


2.   According to the performance report, how did the agency perform under each of
     the relevant goals and measures?

     In an introductory section of the Accountability and Performance Report publication
     (NUREG 1542, Vol 5), the agency concluded that it achieved its performance goals for
     the 29 goals and measures that were reported. There was no discussion that two of the
     29 performance goals were not achieved.

     During our detailed review on the reliability of the performance data, we will evaluate
     how the agency performed under the relevant goals and measures.


3.   How valid and reliable is the data by which the agency judged its performance?
     Where data shortcomings exist, did the agency acknowledge them and indicate
     what steps it will take to correct them?

     At this time, we are conducting a detailed review focusing on the validity and reliability of
     the information reported. We expect to have the field work completed by early
     September and will share our results with you when we issue our report.


4.   Where an agency has not met a performance goal, does the report adequately
     explain why and describe a strategy to meet the goal in the future?
     The NRC reported the results of 29 performance measures, the combined total for its
     four strategic arenas. During FY 1999, it was not able to meet the following two
     performance goals:

     In the Nuclear Materials Safety Performance(5) strategic arena, the second goal:
                “No increase in the number of significant radiation
                exposures resulting from loss or use of source,
                byproduct, and special nuclear materials.”

     In the International Safety Support Performance(6) strategic arena, the first outcome:




     5
            See table 2, page 10, Accountability and Performance Report: FY 1999, NUREG 1542, Vol. 5.
     6
            See table 4, page 13, Accountability and Performance Report: FY 1999, NUREG 1542, Vol. 5.


                                                 22
                                                                                              Appendix V
               Government Performance and Results Act: Review of the Fiscal Year 1999 Performance Report


                “Negotiated/reviewed 4 out of 5 estimated bilateral
                exchange agreements between the NRC and
                appropriate foreign counterparts.”

     Although both of the above results were recognized as not being achieved, there was no
     discussion explaining why they were not met, or how the agency intends to meet each
     goal in the future. The only acknowledgment for each one was a footnote stating the
     following:
                “The performance goal established an approximate
                metric, and the deviation from that level is slight. There
                was no effect on overall program or activity
                performance.”

     During our detailed review on the reliability of the performance data, we will consider
     those measures not achieved and whether they were reported adequately.


5.   Where a goal from the FY 1999 performance plan is not covered in the
     performance report or has changed, did the agency adequately explain why?

     The original FY 1999 performance plan, issued in 1998 as Government Performance
     and Results Act: Performance Plan: Fiscal Year 1999 (NUREG 1627, Vol 1), was
     revised several times as the strategic framework evolved. In February 1999, the agency
     published a revision of its performance plan, as the “FY 2000 Performance Plan” in its
     FY 2000 “Green book,” Budget Estimates and Performance Plan: Fiscal Year 2000
     (NUREG 1100, Vol 15). This version, used as the framework for the FY 1999
     performance report, contains fewer strategic arenas than the original performance plan.
     In addition, some of the performance goals from strategic arenas that were eliminated
     with the revision were moved into the remaining strategic arenas, while others were
     eliminated from the plan all together.

     Although the Green book does not indicate that the FY 2000 performance plan became
     the basis of the FY 1999 performance report, it does provide an explanation of changes
     that were made to the plan and justification for making these changes. The FY 1999
     Accountability and Performance Report identifies the performance plan from the FY
     2000 Green book as the basis for the reported goals.




                                                23
                                                                                               Appendix V
                Government Performance and Results Act: Review of the Fiscal Year 1999 Performance Report

6.    What improvements has the agency made in its performance plan for FY 2001 that
      are relevant to the above issues?

      The agency has made significant efforts in modifying (revising) its performance
      framework to strengthen the usefulness and meaningfulness of its performance
      measures. The draft strategic plan uses the same performance framework that was
      published in the FY 2001 performance plan,(7) where each of the four strategic arenas
      has one set of “strategic [performance] goals” with several sets of overarching
      “performance goals.” We have been informed that the results for measures of both the
      strategic goals and performance goals will be reported in the FY 2000 performance
      report and FY 2001 performance report.


Additional topics the letter suggested for consideration:

+     I suggest that you consider both what the agency performance report contains
      about the agency’s performance and what it should contain. In particular, does
      the report tell us now, and how can future reports tell us better, what your agency
      is doing to achieve real results that matter to the American people?

      At this point in our review, it is too early for us to make any suggestions. If we identify
      any issues that future performance reports should include, we will include them in our
      report on the reliability of the data.

+     Finally, I welcome any analysis or observations you care to make concerning your
      agency’s performance report.

      We would like to share the following observation on NRC’s FY 1999 performance report.
      For two strategic arenas (Nuclear Reactor Safety and Nuclear Materials Safety), most of
      the performance measures were derived from the same data that is used for reporting
      abnormal occurrences(8). The abnormal occurrence report, issued annually to
      Congress, provides a detailed description of reportable events that occurred during the
      year. Each occurrence includes a detailed description of the event, the cause or
      causes, and actions that were taken to prevent reoccurrence.

      Because the performance data comes from the same source that is used to report
      abnormal occurrences, during our review, we will consider the data relationships
      between the two reports.




      7
             Budget Estimates and Performance Plan: Fiscal Year 2001, Feb. 2000, NUREG 1100, Vol. 16.
      8
             Report to Congress on Abnormal Occurrences, Feb 2000, NUREG 0090, Vol 22.


                                                 24
                                                                                                Appendix V
                 Government Performance and Results Act: Review of the Fiscal Year 1999 Performance Report

                                              Attachment I

The following lists ten management challenges we identified for FY 1999. For each
management challenge, we have noted how the agency indirectly addressed it in its
performance plan(9):


(1)    Developing and implementing a risk-informed, performance-based approach to
       regulatory oversight.

       In the Performance Plan, NRC included some strategies for improving its regulatory
       framework to develop and use risk-informed, performance-based approach in
       regulating. These strategies were listed in the following three strategic arenas: Nuclear
       Reactor Safety, Nuclear Materials Safety, and Nuclear Waste Safety.

(2)    Developing information management systems and being able to anticipate and
       measure the benefits to be gained.

       In the Performance Plan, this management challenge was addressed in two information
       technology (IT) projects (Reactor Program System and STARFIRE) under the
       Justification for Program Request section. For these projects, demonstrating benefits
       was included as output measures. No other IT projects contained these, or similar,
       measures in the plan.

(3)    Responding to the impact of industry deregulation and license transfers.

       In the Performance Plan, this was not addressed. But one strategy listed in Nuclear
       Reactor Safety strategic arena did address placing a high priority on license transfers.

(4)    Administering and overseeing agency procurement under government
       contracting rules. Government contracting rules allow the opportunity for fraud
       to occur.

       In the Performance Plan, this was not directly addressed. But a description of how the
       agency manages its contracting process, “Acquisition of Goods and Services,” is
       included in the Management and Support section of the plan.

(5)    Effectively communicating with the public and industry.

       In the Performance Plan, communication with NRC’s stakeholders is included as one of
       the management goals listed in the Management and Support section of the plan. In
       addition, external communication was included as part of the strategies to support the
       following two strategic arenas: Nuclear Reactor Safety and Nuclear Materials Safety.


       9
              Budget Estimates and Performance Plan: Fiscal Year 2000, Feb. 1999, NUREG 1100, Vol. 15.
              Although this performance plan was published as the “FY 2000 Performance Plan,” we used this
              version because it was the one used as the basis for the FY 1999 Performance Report.


                                                   25
                                                                                               Appendix VI
                 Government Performance and Results Act: Review of the Fiscal Year 1999 Performance Report

(6)    Maintaining an unqualified financial statement opinion in light of new and existing
       CFO requirements.

       In the Performance Plan, the financial statement opinion was indirectly addressed in the
       performance plan as an output measure, “Timeliness and quality of NRC’s Annual
       Financial Statement.” This measure was included in the Management and Support
       section of the plan, under Financial Management.

(7)    Ensuring that NRC’s processes, such as spent fuel cask certification and license
       renewal, are responsive to industry needs.

       In the Performance Plan, ensuring NRC’s processes are responsive to industry needs is
       not included. But the plan does address both of the examples used in this challenge.
       First, spent fuel cask certification is discussed in a section of the Nuclear Materials
       Safety strategic arena and includes output measures for design review completion.

       Second, license renewal is included as one of the strategies in the Nuclear Reactor
       Safety strategic arena: “The NRC will place a high priority on the review of applications
       for renewal...”

(8)    Ensuring that NRC’s enforcement program has an appropriate safety focus and
       reflects improved licensee performance.

       In the Performance Plan, the reactor enforcement program is described in the Nuclear
       Reactor Safety strategic arena. The program describes using risk information in
       evaluating the enforcement action to be taken. A similar discussion of the enforcement
       program is included in the Nuclear Materials Safety strategic arena.

(9)    Refocusing NRC’s research program to reflect a mature industry.

       In the Performance Plan, the focus of NRC’s research program is not addressed,
       although there are two lengthy research program descriptions contained in the plan
       under the two strategic arenas, Nuclear Reactor Safety and Nuclear Materials Safety.

(10)   Responding to external influences for changing NRC’s operations. For example,
       the ability to meet NRC’s mission and requirements of the Government
       Performance and Results Act, as the result of a proposed agency reorganization
       poses a significant challenge to NRC.

              In the Performance Plan, this challenge is not explicitly addressed. We note that
              several of our management challenges also include “responding to external
              influences” (see numbers 3, 4, 5, 7 and 9).



ABBREVIATIONS AND ACRONYMS



                                                  26
                                                                                       Appendix VI
         Government Performance and Results Act: Review of the Fiscal Year 1999 Performance Report



EDO    Executive Director for Operations

FY     fiscal year

GAO    General Accounting Office

GPRA   Government Performance and Results Act of 1993

NEPA   National Environmental Policy Act

NMSS   Office of Nuclear Material Safety and Safeguards

NRC    Nuclear Regulatory Commission

OCFO   Office of the Chief Financial Officer

OIG    Office of the Inspector General

OMB    Office of Management and Budget




                                          27
